No. ________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________

NAZARI VASILICH CAM,
Petitioner,
v.
STATE OF OREGON,
Respondent
__________________________

On Petition for a Writ of Certiorari to the Court of Appeals of the State of Oregon
__________________________

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
__________________________

ERNEST G. LANNET
Chief Defender
KYLE L. KROHN
Senior Deputy Public Defender
Counsel of Record
Office of Public Defense Services
1175 Court Street NE
Salem, OR 97301
Telephone (503) 378-3349
kyle.krohn@opds.state.or.us

TABLE OF CONTENTS
Order of Dismissal by the Oregon Court of Appeals............................................App. 1
Order Denying Reconsideration by the Oregon Court of Appeals.......................App. 2
Order Denying Review by the Oregon Supreme Court........................................App. 3
Letter to Petitioner from Trial Court Judge.........................................................App. 4
Petitioner’s Petition for Reconsideration in the Oregon Court of Appeals....App. 5-15
Respondent’s Response to Petition for Reconsideration...............................App. 16-23
Judgment of the Yamhill County Circuit Court............................................App. 24-32
Petitioner’s Notice of Appeal to the Oregon Court of Appeals......................App. 33-37

App. 1

App. 2

App. 3

Verified Correct Copy of the Original 2/3/2020

App. 4
THE CIRCUIT COURT OF THE STATE OF OREGON
TWENTY-FIFTH JUDICIAL DISTRICT
YAMHILL COUNTY
Yamhill County Courthouse
McMinnville, Oregon 97128
Phone (503) 434-7497
FAX (503) 435-3067

JOHN L. COLLINS
CIRCUIT JUDGE

January 29, 2020
Mr. Nazari Vasilich Cam
SID# 8026076

Deer Ridge Correctional Institution
3920 East Ashwood Road
Madras, Oregon 97741

Ar- GSIVED
STATE COUR`fi ADMIN1STPATCR

FEB 0 3 2020
RE: Your request for transcript
Case: 18CR42157

_

SUPREME COURT
COURT OF APPEALS

Mr. Nazari Vasilich Cam:
This court has recently received your request for a transcript of your trial.
Our file reflects that you have filed notice of appeal of your case. That, of course, is your legal right.
will remind you that, just as you had at trial, you have a right to an attorney on appeal. Our file reflects that
you met financial qualifications for a court-appointed attorney earlier and that qualification would still apply
with regard to appointment of appellate counsel. You could be represented by the Office of Public Defense
Services, commonly referred to as the Public Defender. A"Notice of Rights on Appeal" is enclosed for your
convenience and it has contact information for the Office of Public Defense Services.
I cannot give you legal advice on how to obtain a transcript. However, I understand that it is necessary
for you to file a motion with the Court of Appeals to obtain an order for a transcript. I strongly urge you to
contact Public Defense Services for assistance in this.

OHN L. COLL
Circuit Judge
Cc: File
DA;
A ~OJ APella
''`f'~
e.~3i.~i~ion,~,
p,glilativlLo7RA~dmYrnstrator

App. 5

IN THE COURT OF APPEALS OF THE STATE OF OREGON

STATE OF OREGON,

Yamhill County Circuit Court
Case No. 18CR42157

Plaintiff-Respondent,
v.

CA A173276

NAZARIE VASILICH CAM,
Defendant-Appellant.

APPELLANT’S PETITION FOR RECONSIDERATION

Appeal from the Judgment of the Circuit Court
for Yamhill County
Honorable John L. Collins, Judge

ERNEST G. LANNET #013248
Chief Defender
Criminal Appellate Section
KYLE KROHN #104301
Deputy Public Defender
Office of Public Defense Services
1175 Court Street NE
Salem, OR 97301
kyle.krohn@opds.state.or.us
Phone: (503) 378-3349
Attorneys for Defendant-Appellant

72881

ELLEN F. ROSENBLUM #753239
Attorney General
BENJAMIN GUTMAN #160599
Solicitor General
400 Justice Building
1162 Court Street NE
Salem, OR 97301
benjamin.gutman@doj.state.or.us
Phone: (503) 378-4402
Attorneys for Plaintiff-Respondent

06/20

App. 6
APPELLANT’S PETITION FOR RECONSIDERATION

Introduction
Pursuant to ORAP 6.25, defendant respectfully petitions this court to
reconsider its April 6, 2020, order of dismissal. Defendant asks this court to
reinstate his appeal and allow the appeal to proceed under the notice of appeal
that he filed pro se on January 16, 2020, or the amended notice of appeal that he
filed through counsel on May 26, 2020.

Summary of Argument
Defendant failed to satisfy the statutes that govern timing and service of a
notice of appeal. But his failure resulted from this court’s violation of his
constitutional right to counsel on appeal. This court must appoint counsel sua
sponte for any defendant whose indigency and desire to appeal are manifest.
Because the record before this court showed that defendant was indigent and
desired to appeal, it was obligated to provide him with counsel. Its failure to do
so left him without counsel until the statutory deadline had passed.
Although defendant would likely be entitled to post-conviction relief in
the form of a delayed appeal, this court can and should remedy its own
constitutional violation. This court can deem the statutory service requirements
unconstitutional as applied to defendant, or it may use its inherent judicial
power to remedy its constitutional violation by allowing the appeal to proceed.

App. 7
2
Summary of Facts
A Yamhill County grand jury charged defendant with felony driving
under the influence of intoxicants and several misdemeanors. The trial court
found that defendant was indigent and appointed a lawyer to represent him.
Defendant later opted to represent himself, but his attorney remained as a legal
advisor. A jury found him guilty. The trial court sentenced defendant to 20
months in prison. It entered the judgment on December 19, 2019.
On January 16, 2020, defendant filed a notice of appeal pro se. The
notice of appeal included proof of service on the Attorney General and the
Yamhill County Circuit Court. Defendant listed his address as PO Box 3,
Hubbard, Oregon.
On January 29, 2020, the trial judge sent a letter to defendant that said
that he qualified for court-appointed counsel on appeal and that he could obtain
counsel by contacting the Office of Public Defense Services (OPDS). The judge
mailed the letter to defendant at Deer Ridge Correctional Institution and also
sent this court a copy of the letter.
On February 19, 2020, this court issued an order to show cause why the
appeal should not be dismissed. This court noted that the notice of appeal was
required to be served on the district attorney within 30 days of the entry of the

App. 8
3
judgment. The order gave defendant 14 days to respond or seek leave to file a
late notice of appeal. This court mailed the order to defendant at his PO Box.1
On April 6, 2020, this court dismissed the appeal due to defendant’s
failure to respond to the show cause order.
On April 10, 2020, counsel filed a motion for appointment of counsel on
defendant’s behalf.2 On May 26, counsel filed an amended notice of appeal and
served the amended notice on the district attorney.

Argument
I.

Defendant timely filed a notice of appeal, but he did not satisfy the
jurisdictional requirement of timely service on the district attorney
under ORS 138.071 and ORS 138.081.
Defendant seeks to appeal from a judgment of conviction. He has a

statutory right to do so. See ORS 138.035(1) (providing that a defendant may
appeal from a judgment of conviction); ORS 138.020 (providing that a
defendant has a “right” to appeal as provided by statute).
Other statutes impose timing and service requirements on the appeal.
ORS 138.071(1) requires that the notice of appeal be “served and filed” within

1

Defendant was incarcerated for the entire relevant period. He
informs counsel that he does not have access to his PO Box while he is in
prison, and he was unaware of this court’s orders until he spoke to counsel.
2

Defendant first contacted OPDS regarding this appeal on March
26, 2020. After counsel clarified the situation and explained defendant’s
options, he asked counsel to represent him on April 9, 2020.

App. 9
4
30 days of entry of judgment, and ORS 138.071(5) provides for a late appeal if
it is filed within 90 days of entry of judgment. ORS 138.081(1)(a)(A) requires
the defendant to serve the notice of appeal on the district attorney. Those
requirements are jurisdictional. State v. Turley, 202 Or App 40, 42, 120 P3d
1229 (2005), rev den, 340 Or 157 (2006); City of Pendleton v. Elk, 137 Or App
513, 521, 905 P2d 237 (1995).
Here, defendant filed the notice of appeal 28 days after the entry of
judgment, so the notice of appeal was timely. However, defendant did not serve
the district attorney. And defendant did not obtain counsel to fix the problem
until after the 90-day deadline for a late appeal had passed. Consequently,
defendant did not satisfy the requirements of ORS 138.071 and ORS 138.081,
and those statutes require this court to dismiss the appeal. But a court cannot
apply a statute if doing so would violate a defendant’s constitutional rights.
E.g., Bailey v. Lampert, 342 Or 321, 329, 153 P3d 95 (2007).
II.

This court violated defendant’s constitutional right to counsel when
it failed to appoint counsel for him sua sponte despite his manifest
indigency and desire to appeal.
The Fourteenth Amendment to the United States Constitution provides

that no state may “deprive any person of life, liberty, or property, without due
process of law” or “deny to any person within its jurisdiction the equal
protection of the laws.” The Fourteenth Amendment does not require states to
allow criminal appeals. However, if a state chooses to allow criminal appeals,

App. 10
5
“the procedures used in deciding appeals must comport with the demands of the
Due Process and Equal Protection Clauses of the Constitution.” Evitts v. Lucey,
469 US 387, 393, 105 S Ct 830, 83 L Ed 2d 821 (1985). Those demands include
a right to court-appointed counsel if a defendant is indigent. Id. at 841; Douglas
v. California, 372 US 353, 355–56, 83 S Ct 814, 9 L Ed 2d 811 (1963).
A defendant may waive the right to counsel on appeal, but the waiver
must be knowing and voluntary. Swenson v. Bosler, 386 US 258, 260, 87 S Ct
996, 18 L Ed 2d 33 (1967). And a defendant’s mere failure to request counsel
cannot be deemed a waiver. Id. In the absence of an express waiver of the right
to counsel, the court must appoint counsel for any defendant “whose indigency
and desire to appeal are manifest.” Id. But cf. Gairson v. Gladden, 247 Or 88,
90–91, 425 P2d 761 (1967) (holding that a court need not “inquire” of every
convicted defendant whether they are indigent or intend to appeal).
Here, this court violated defendant’s right to counsel under the
Fourteenth Amendment when it dismissed the appeal without first appointing
counsel. Defendant’s “indigency and desire to appeal” were both “manifest.”
Bosler, 386 US at 260. His pro se notice of appeal clearly showed his desire to
appeal, and his indigency was reflected both in the trial court record and in the
letter that the trial judge forwarded to this court that stated that defendant had
been found eligible for court-appointed counsel.

App. 11
6
Moreover, nothing in the record showed that defendant knowingly and
voluntarily waived his right to counsel on appeal. Although defendant had
opted to represent himself at trial, that waiver did not encompass the appeal. It
is not uncommon for defendants to represent themselves at trial but accept
representation by counsel on appeal. The record also does not show that
defendant knowingly and voluntarily waived counsel at his trial; in fact, if the
appeal proceeds, he can challenge the validity of his waiver. State v. Cole, 323
Or 30, 36, 912 P2d 907 (1996). The bare fact that defendant did not ask this
court to appoint counsel cannot be deemed a waiver. Bosler, 386 US at 260.
At minimum, this court should have appointed a legal advisor to aid
defendant in filing and serving his appeal. See Faretta v. California, 422 US
806, 834 n 46, 95 S Ct 2525, 45 L Ed 2d 562 (1975) (“a State may—even over
objection by the accused—appoint a ‘standby counsel’ to aid the accused if and
when the accused requests help”). Defendant accepted a legal advisor below,
which showed that he did not want to navigate the legal system on his own.
And the deficiencies in his pro se notice of appeal should have signaled to this
court that he needed additional help. A legal advisor could have spoken with
defendant and explained the meaning and significance of this court’s order and
what he needed to do so solve the problem. And a legal advisor could have
addressed whether defendant truly wanted to represent himself or whether he
wanted to be represented by counsel.

App. 12
7
Defendant did eventually seek counsel on his own. But this court’s
failure to appoint counsel sua sponte harmed him. If this court had appointed
counsel as soon as defendant filed his pro se notice of appeal, counsel could
have corrected any deficiency in the notice.3 If this court had appointed counsel
on February 19, when it issued the show cause order, counsel could still have
sought leave to file a late notice of appeal under ORS 138.071(5).
Even a legal advisor would have sufficed. In counsel’s experience, a legal
advisor would have determined that defendant was incarcerated and had likely
not received this court’s orders. The legal advisor would have contacted
defendant in prison and given him the information that he needed to preserve
his statutory right to appeal.
Either way, counsel could have remedied any deficiencies in the notice of
appeal up until March 18, 2020, the 90th day from entry of judgment. But this
court failed to appoint counsel before that date passed. By the time defendant
sought counsel on his own, it was too late—the statutory deadline for a late
notice of appeal had already passed. This court violated defendant’s
constitutional rights when it failed to appoint counsel before that date.

3

A defendant has no constitutional right to self-representation on
appeal, so this court would rarely if ever err by appointing counsel sua sponte.
Martinez v. Court of Appeal of California, Fourth Appellate Dist., 528 US 152,
163-64, 120 S Ct 684, 145 L Ed 2d 597 (2000).

App. 13
8
III.

This court can and should remedy its constitutional violation by
holding ORS 138.071 and ORS 138.081 unconstitutional as applied to
this case, or by exercising its inherent judicial power.
A violation of the right to counsel on appeal is a structural error that the

state must remedy. Penson v. Ohio, 488 US 75, 88-89, 109 S Ct 346, 102 L Ed
2d 300 (1988). When the violation “deprives a defendant of an appeal that he
otherwise would have taken,” he is “entitl[ed]” to an appeal. Roe v. FloresOrtega, 528 US 470, 484, 120 S Ct 1029, 145 L Ed 2d 985 (2000); see also
Shipman v. Gladden, 253 Or 192, 203, 453 P2d 921 (1969) (same).
It is true that post-conviction relief could provide that remedy in the form
of a delayed appeal. Shipman, 253 Or at 203-04. But this court can and should
remedy its own constitutional violation. Cf. Holbert v. Gladden, 253 Or 435,
439, 455 P2d 45 (1969) (choosing to reinstate an appeal that the court had
previously dismissed, instead of granting a delayed appeal, in order to remedy
violation of the right to counsel). It may do so in one of two ways.
First, this court may hold that the timing and service requirements of
ORS 138.071 and ORS 138.081 are unconstitutional as applied to defendant.
“[A] statute or a rule may be held constitutionally invalid as applied when it
operates to deprive an individual of a protected right although its general
validity as a measure enacted in the legitimate exercise of state power is beyond
question.” Boddie v. Connecticut, 401 US 371, 379, 91 S Ct 780, 28 L Ed 2d
113 (1971). Because this court did not appoint counsel for defendant until it

App. 14
9
was too late for him to satisfy those statutes, dismissing the appeal based on
those statutes would violate his right to counsel. Moreover, those statutes are
not necessary for this court to have jurisdiction over the appeal. This court can
simply decline to apply ORS 138.071 and ORS 138.081 under the unique
circumstances of this case and allow defendant’s appeal to proceed under ORS
138.035, which provides statutory authority for the appeal and does not itself
contain a timing or service requirement.
Second, this court may exercise its inherent power to remedy the
constitutional violation by allowing defendant’s appeal to proceed. “Although
the legislature may provide for, and limit, a statutory right of appeal, the
appellate courts retain the inherent authority to determine how to adjudicate and
dispose of those appeals.” State v. Beebe, 300 Or App 31, 34, 452 P3d 1063
(2019), rev den, 366 Or 205 (2020). That inherent authority includes the “power
to do those things necessary to perform the judicial function for which the
legislative branch has not provided, and, in rare instances, to act contrary to the
dictates of the legislative branch.” Ortwein v. Schwab, 262 Or 375, 385, 498
P2d 757 (1972), aff’d, 410 US 656, 93 S Ct 1172, 35 L Ed 2d 572 (1973).
Although the legislature has not authorized an appeal when the appellant
fails to satisfy the statutory timing and service requirements, this court surely
has the power to permit an appeal to proceed when it is necessary to remedy the
court’s own constitutional violation. If ever there is “rare instance” where the

App. 15
10
court should use its inherent authority to override a statutory restriction, it is
when the court itself has violated a person’s constitutional rights.
Defendant would likely be entitled to a delayed appeal if he were to seek
post-conviction relief. But there is “no reason” why he “should be made to
jump through more procedural hoops before he can get the relief to which he is
entitled.” State v. Cleveland, 148 Or App 97, 100, 939 P2d 94, rev den, 325 Or
621 (1997). Because this court is “in a position to order the same relief to which
defendant would be entitled under a post-conviction proceeding,” it should “do
so in the interests of judicial economy.” Id.

CONCLUSION
Defendant respectfully requests that this court reconsider its order of
dismissal and allow his appeal to proceed.

Respectfully submitted,
ERNEST G. LANNET
CHIEF DEFENDER
CRIMINAL APPELLATE SECTION
OFFICE OF PUBLIC DEFENSE SERVICES
ESigned
Signed
By
Kyle Krohn at 2:29 pm, Jun 02, 2020
________________________________
KYLE KROHN OSB #104301
DEPUTY PUBLIC DEFENDER
Kyle.Krohn@opds.state.or.us
Attorneys for Defendant-Appellant
Nazarie Vasilich Cam

App. 16
IN THE COURT OF APPEALS OF THE STATE OF OREGON
_______________
STATE OF OREGON,

Yamhill County Circuit Court
No. 18CR42157

Plaintiff-Respondent,
CA A173276
v.
NAZARI VASILICH CAM,
Defendant-Appellant.
_______________
RESPONDENT’S RESPONSE TO PETITION FOR RECONSIDERATION
_______________
Appeal from the Judgment of the Circuit Court for Yamhill County
Honorable JOHN L. COLLINS, Judge

NAZARI VASILICH CAM
PO Box #3
Hubbard, OR 97032
Pro se Defendant-Appellant

ELLEN F. ROSENBLUM #753239
Attorney General
BENJAMIN GUTMAN #160599
Solicitor General
KIRSTEN M. NAITO #114684
Assistant Attorney General
1162 Court St. NE
Salem, Oregon 97301-4096
Telephone: (503) 378-4402
Email:
kirsten.m.naito@doj.state.or.us
Attorneys for Plaintiff-Respondent
7/20

App. 17
RESPONDENT’S RESPONSE TO
PETITION FOR RECONSIDERATION
_______________
Defendant, acting pro se, filed a notice of appeal but failed to satisfy the
jurisdictional requirements of timely service on the district attorney, and this
court dismissed his appeal. Defendant petitions for reconsideration and argues
that this court was required, sua sponte, to appoint him an attorney before
dismissing his appeal. This court requested a response from the state on
June 18, 2020. As discussed below, this court should deny defendant’s petition.
First, this court lacks jurisdiction over a case where the notice of appeal was not
timely filed and served; defendant’s petition for reconsideration amounts to an
attempt to circumvent the jurisdictional statutes. Second, even if this court had
jurisdiction, defendant’s claim that he was constitutionally entitled to a sua
sponte appointment of counsel lacks merit.
A.

Background
Defendant was convicted of felony driving under the influence of

intoxicants, driving while suspended, reckless driving, and five counts of
recklessly endangering another person. (SER 1–9). Defendant was initially
represented by appointed counsel, but later chose to represent himself. (Tr 4,
46–48, 62–63). The trial court appointed a defense attorney as a legal
representative to assist defendant, but the court removed that attorney at
defendant’s request before trial. (Tr 129). The court offered to appoint

App. 18
2

defendant an attorney during most of the pre-trial hearings, at trial, and at
sentencing, but defendant refused those offers. (Tr 46–48, 62–63, 126, 136,
187, 193, 406).
After the court sentenced defendant, he was given a copy of his rights to
appeal and the court notified defendant that he had the right to an attorney on
appeal.1 (Tr 422). Defendant, pro se, filed a timely notice of appeal on
January 16, 2020. However, defendant failed to serve his notice of appeal on
the district attorney, as is required by ORS 138.081(1)(A)(a). In the copy of the
notice of appeal that defendant served on the circuit court, defendant also
requested a copy of the transcript. (SER 10). On January 29, 2020, the trial
court sent defendant a letter in response to his transcript request informing him
of his right to an attorney on appeal, directing him to contact OPDS to exercise
that right, and enclosing a copy of his rights to appeal. (SER 21–22).
On February 19, 2020, this court issued an order to show cause why the
appeal should not be dismissed based on defendant’s failure to serve the district
attorney. Defendant did not respond to the order, and this court dismissed the
1

On the record, it is clear that defendant was provided a written
notice of his right to appeal, but that notice is not contained in the record. The
court later provided a document entitled: “Notice and Advice of Right to
Appeal” in the January 29, 2020 letter discussed below; it is reasonable to infer
that that notice was the same as the notice provided to defendant at sentencing.
(SER 21–22). That notice provides that a defendant has a right to an attorney
on appeal. (SER 22).

App. 19
3

appeal on April 6, 2020.2 Defendant then filed a motion to appoint counsel,
which this court granted. And on May 26, 2020, defendant’s appointed counsel
filed an amended notice of appeal. Defendant then petitioned this court for
reconsideration of the order dismissing his appeal. For the reasons explained
below, this court should deny defendant’s petition for reconsideration.
B.

This court lacks jurisdiction over defendant’s untimely appeal.
The legislature has set out statutory jurisdictional requirements that a

defendant must comply with in order to appeal. A notice of appeal must be
filed and properly served within 30 days of entry of the judgment to be
appealed. ORS 138.071(1); ORS 19.270. One of the parties that must be
served with a notice of appeal in a criminal case is the district attorney.
ORS 138.081(1)(A)(a). The failure to timely file and serve a notice of appeal is
a jurisdictional defect. See State v. Fowler, 350 Or 133, 138, 252 P3d 302, 305
(2011) (holding that Court of Appeals lacks jurisdiction over untimely appeal).
This court may extend those jurisdictional timelines under limited
circumstances. Specifically, a criminal defendant may request to file a notice of
appeal after 30 days but “no later than 90 days after the entry of * * * the

2

Defendant asserts that he did not receive that order because it was
mailed to his PO Box, which he did not have access to because he was
incarcerated. (Pet for Recon 3, n 1). But that was the address that defendant
provided to this court in his notice of appeal (SER 10), and he was required to
provide his current address to this court pursuant to ORAP 1.32(1).

App. 20
4

judgment.” ORS 138.071(5)(c). Under that section, a defendant must
demonstrate, by clear and convincing evidence, that the failure to file a timely
notice is not attributable to defendant and that defendant has a “colorable claim
of error.” ORS 138.071(5)(a)(A)–(B).
Here, defendant failed to timely serve the district attorney or request
leave to file an amended notice within 90 days of the entry of the judgment.
Therefore, even if this court were to allow defendant’s petition for
reconsideration of the dismissal order, it would still lack jurisdiction over his
appeal.
In arguing that this court should grant his petition, defendant asserts that
this court “may hold that the timing and service requirements of ORS 138.071
and ORS 138.081 are unconstitutional as applied to defendant.” (Pet for Recon
8). But, as described below, this court did not violate defendant’s right to
counsel and defendant provides no independent reason as to why those
requirements would be unconstitutional as applied to him. Alternatively,
defendant appears to suggest that this court may simply “decline to apply” those
statutes. (Pet for Recon 9). But defendant provides no authority for that
assertion.
Relatedly, defendant also suggests that this court “exercise its inherent
power to remedy the constitutional violation.” (Pet for Recon 9). To the extent
there was a constitutional violation for failure to sua sponte appoint counsel on

App. 21
5

appeal, a petition for reconsideration is not the appropriate means of vindicating
that right. Moreover, as discussed below, there is no authority for defendant’s
proposition that this court was required to sua sponte appoint him counsel in
this situation.
C.

Defendant provides no authority that requires this court to sua
sponte appoint counsel for an appeal after a defendant waives
counsel at trial.
Defendant argues that this court violated his constitutional right to an

attorney by failing, sua sponte, to appoint him an attorney. (Pet for Recon 1).
And although the right to counsel applies to appeals, see Douglas v. California,
372 US 353, 356–57, 83 S Ct 814, 9 L Ed 2d 811 (1963), defendant has not
demonstrated that this court violated his right to counsel. Defendant waived his
right to trial counsel and demonstrated, during the year before his trial, that he
did not want counsel provided by the state. (Tr 46–48, 62–63, 126, 136, 187,
193, 406). The trial court informed defendant of his right to an appointed
attorney on appeal on two occasions. (Tr 422; SER 21). That defendant
changed his mind and decided to seek appointed counsel after this court
dismissed his appeal does not mean that this court violated his right to counsel
by failing, sua sponte, to appoint him an attorney.
In arguing that this court erred, defendant provides no authority that this
court was required to appoint counsel when, as here, defendant waived his right
to trial counsel. Instead, defendant argues that, under Swenson v. Bolser, 386

App. 22
6

US 258, 260, 87 S Ct 996, 18 L Ed 2d 33 (1967), this court was required to
appoint an attorney because defendant manifested his intention to appeal and
was indigent. (App Br 5). But Swenson does not require an appellate court to
appoint an attorney after a defendant waives his right to an attorney at trial. In
Swenson, an indigent defendant was represented by appointed counsel at trial,
but that attorney withdrew after filing the notice of appeal and the defendant
was forced to represent himself on appeal. 386 US at 259. The state of
Mississippi did not appoint appellate counsel to indigent defendants but allowed
defendants to retain counsel. Id. at 258–59. The Court held that, under those
circumstances, that practice violated the defendant’s right to counsel as set out
in Douglas. Id. at 259. But those circumstances are not present here. Oregon
provides counsel to indigent defendants who want counsel at trial and on
appeal. ORS 135.045, 138.500. Defendant waived his right to an attorney
below (Tr 62–63), and did not request an attorney on appeal until after the 90day limitation set out in ORS 138.071(5)(c). Swenson does not, as defendant
contends, require that courts of appeal sua sponte appoint an appellant counsel
after that defendant has waived counsel below and does not request counsel on
appeal. Thus, defendant has not demonstrated that this court committed a
constitutional violation.

App. 23
7

D.

Conclusion
This court should deny defendant’s petition for reconsideration.
Respectfully submitted,
ELLEN F. ROSENBLUM
Attorney General
BENJAMIN GUTMAN
Solicitor General

/s/ Kirsten M. Naito
_________________________________
KIRSTEN M. NAITO #114684
Assistant Attorney General
kirsten.m.naito@doj.state.or.us
Attorneys for Plaintiff-Respondent
State of Oregon

App. 24

App. 25

App. 26

App. 27

App. 28

App. 29

App. 30

App. 31

App. 32

App. 33

App. 34

App. 35

App. 36

App. 37

